                    June 19, 2000

                    DEBORAH K. WILLHITE
                    SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS
                     AND PUBLIC POLICY

                    JAMES C. TOLBERT
                    MANAGER, STAMP SERVICES

                    SUBJECT:	     Review of the Citizens’ Stamp Advisory
                                  Committee’s Criteria and Process Used in
                                  Reviewing the William Holmes McGuffey
                                  Historical Society's Stamp Subject Proposal
                                  (Report Number MK-MA-00-001)

                    This management advisory report presents the results of
                    our review of the process and criteria used by the Stamp
                    Development Group and Citizens’ Stamp Advisory
                    Committee to review the William Holmes McGuffey
                    Historical Society's stamp subject proposal (Project Number
                    00RR008RG000). The report responds to a congressional
                    request to review the criteria used in selecting
                    commemorative stamp subjects and determine whether the
                    Postal Service provided all required documentation in
                    response to the society’s Freedom of Information Act
                    request of January 1999.

Results in Brief	   Our review disclosed that the society’s stamp proposal had
                    been reviewed by the Stamp Development Group and the
                    committee using publicly disclosed Postal Service criteria
                    and that no additional criteria were used in evaluating stamp
                    subject proposals. At the time of our review, the committee
                    had categorized the society’s stamp proposal as "under
                    consideration." Stamp subjects may remain under
                    consideration for years, until the subject is selected for
                    issuance or removed from consideration.

                    Although the society’s stamp proposal was still being
                    considered, we noted that response letters to the society did
Review of the Citizens’ Stamp Advisory Committee’s Criteria	                           MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

                                   not fully explain the status of its stamp subject proposal or
                                   that stamp subjects may be grouped according to themes of
                                   national interest. Stamp subject proposals categorized into
                                   groups could also be considered for issuance in the future.

                                   In addition, we noted that the Postal Service did not provide
                                   all of the required documentation to fully respond to the
                                   society’s Freedom of Information Act request and appeal.
                                   According to Stamp Development officials, personnel
                                   handling the Freedom of Information Act request,
                                   mistakenly did not copy all of the relevant documents. We
                                   believe this may have occurred because the stamp proposal
                                   filing system did not contain a record of all documents
                                   received or actions taken in association with the society’s
                                   stamp proposal.

                                   We suggested that the senior vice president of Government
                                   Relations and Public Policy and the manager of Stamp
                                   Services: (1) tailor their standard response letters to include
                                   more detailed information, (2) advise the society that their
                                   stamp subject is still eligible for future issuance, (3) revise
                                   the pamphlet Creating U.S. Postage Stamps, (4) determine
                                   whether the society should receive additional
                                   correspondence, and (5) create a database for stamp
                                   subject proposals.

                                   Management generally agreed with the report’s suggestions
                                   and actions currently underway or planned should address
                                   the issues identified in this report.

    Background 	                   The committee, an independent committee of the Postal
                                   Service, was created in 1957 to select stimulating and
                                   educational subjects for stamps. The committee1 is
                                   composed of members who are appointed by the
                                   postmaster general and represent a wide range of expertise
                                   in history, art, education, sports, science, and technology,
                                   and other subjects of public interest. A stated goal of the
                                   committee is to create a broad-based, well-rounded
                                   program with wide public appeal. To this end, the
                                   committee groups subjects together by theme such as
                                   musicians, inventors, submarines, and deep-sea creatures.
                                   The committee has the authority to transfer subjects

1
    The committee may have as many as fifteen members, with no set minimum.




                                                        2
Review of the Citizens’ Stamp Advisory Committee’s Criteria	                     MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

                               between categories and receives approximately 50,000
                               proposals for stamp subjects each year.

                               The Postal Service accepts proposals for commemorative
                               stamp subjects, but not stamp designs, and the committee
                               considers new stamp proposals at closed quarterly
                               meetings. These new stamp proposals must meet three
                               general and 12 specific criteria, as defined by the Postal
                               Service (see Appendix A). At each meeting, the committee
                               reviews and selects stamp proposals and provides guidance
                               on designs and artwork. The committee presents selected
                               subjects and corresponding designs for stamps and
                               stationery to the postmaster general for final approval.

                               The Stamp Development Group of the Postal Service
                               handles letters acknowledging receipt and consideration of
                               stamp subject proposals and other administrative matters.
                               Due to the large volume of stamp subject proposals, they
                               are screened by the Stamp Development Group to expedite
                               the stamp selection process.

                               Proposals for a stamp commemorating William Holmes
                               McGuffey date back to 1949. Additionally, three bills have
                               been presented before Congress for the issuance of such a
                               stamp. Correspondence in support of this subject
                               throughout the last three decades has come from
                               businessmen, teachers, retired citizens, congressmen, and
                               two historical societies.

                               William Holmes McGuffey is the author of an influential
                               schoolbook, The McGuffey Reader, a graded series of six
                               books. The McGuffey Reader was created to be an
                               influence in forming the minds of nineteenth century
                               American children, offering moral lessons along with
                               practical knowledge. First published in 1836, it is estimated
                               that over 100 million copies were sold, and schools in 37
                               states adopted The McGuffey Reader for use.

 Prior Review	                 We issued a report entitled Review of the Operations of the
 Coverage	                     Citizens’ Stamp Advisory Committee in July 1999. The
                               objective of that review was to examine how new stamp
                               proposals were evaluated and whether committee policy
                               decisions were documented. We suggested that the
                               committee record strategic policy decisions in a readily
                               usable format and that committee membership should be



                                                   3
Review of the Citizens’ Stamp Advisory Committee’s Criteria                             MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

                                     increased. Postal Service management agreed with both
                                     suggestions.

    Objective, Scope, and            This review was conducted in response to a congressional
    Methodology                      request. The objective of the review was to examine the
                                     processes and criteria used by the Stamp Development
                                     Group and the committee for screening and selecting stamp
                                     subjects. We reviewed correspondence between the Postal
                                     Service and the society pertaining to this stamp subject
                                     proposal.

                                     We interviewed members of Stamp Services and the Stamp
                                     Development Group, observed the physical location of the
                                     file storage for stamp subject correspondence, and
                                     reviewed the processes and criteria used by the Stamp
                                     Development Group and the committee. With the
                                     assistance of the General Counsel of the Office of Inspector
                                     General, we obtained and analyzed all documentation
                                     related to the William Holmes McGuffey stamp subject
                                     proposal.

                                     This review was conducted from February through
                                     June 2000 in accordance with the President’s Council on
                                     Integrity and Efficiency, Quality Standards for Inspections.
                                     We discussed our conclusions and observations with
                                     appropriate management officials and included their
                                     comments, where appropriate.

    Established Criteria             All stamp subject proposals submitted to the committee are
    and Processes                    supposed to be reviewed by the Stamp Development
                                     Group. Using guidance from the committee, the Stamp
                                     Development Group determines whether stamp subject
                                     proposals have been issued in the past ten years,
                                     previously considered and not recommended by the
                                     committee, or are already under consideration for issuance.
                                     Subjects included in one of these three categories are
                                     eliminated from consideration. A letter acknowledging
                                     receipt of a subject proposal and its status is sent to the
                                     person(s) or organization recommending the subject. The
                                     remaining stamp subjects are evaluated using criteria2
                                     published in the Creating U.S. Postage Stamps pamphlet. If
                                     proposed stamp subjects meet these criteria, the subjects
                                     are presented to the committee for review.

2
    The 12 published criteria can be found in Appendix A.




                                                            4
Review of the Citizens’ Stamp Advisory Committee’s Criteria                      MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal


                               When reviewing new subjects, the committee takes one of
                               two actions; stamp subjects are either categorized as “not
                               recommended” for issuance or “under consideration.”
                               Subjects categorized as “not recommended” are those
                               determined by the committee to be unsuitable for issuance
                               because they may represent tragedies, disasters, or are
                               otherwise negative in nature. Subjects categorized as
                               "under consideration" are reviewed quarterly by the
                               committee, which selects about 30 stamp subjects each
                               year to recommend to the postmaster general for a national
                               stamp program. The national stamp program is comprised
                               of various themes of national interest.

                               Each year, the committee establishes several general
                               themes for the national stamp program. Occasionally,
                               stamp subjects are selected for individual issuance;
                               however, subjects have a better chance for selection as part
                               of a general theme. According to personnel in the Stamp
                               Development Group, the William Holmes McGuffey
                               proposal may be considered for an educational theme in the
                               future.

 Status of Stamp               At the time of our review, the William Holmes McGuffey
 Proposal                      proposal had been included in the "under consideration"
                               category for at least five years. According to Stamp
                               Development officials this is not unusual, since stamp
                               subjects can remain "under consideration" for an extended
                               period of time before being selected for issuance. As
                               examples, both the Audie Murphy stamp of the
                               Distinguished Soldiers series issued in 2000 and the Royal
                               Poinsettia stamp of the Tropical Flowers series issued in
                               1999 were selected for issuance after being under
                               consideration for more than five years. Therefore, the
                               William Holmes McGuffey subject can be selected for
                               issuance as long as it remains in the “under consideration”
                               category.

                               The society should have known the status of their stamp
                               proposal, since the Stamp Development Group responds by
                               letter to each proposal it receives. However, the letters are
                               based on standard formats that are tailored to respond to
                               each proposal and the letters did not completely explain the
                               status of the society’s proposal. Specifically, the letters
                               stated that the proposal was “under consideration” but did



                                                  5
Review of the Citizens’ Stamp Advisory Committee’s Criteria                         MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

                               not explain that the proposal was still eligible for selection
                               for future national stamp programs.

 Freedom of                    In an effort to better determine the status of and criteria
 Information Act               used to review its stamp subject proposal, the society
 Request                       submitted a Freedom of Information Act request on January
                               6, 1999. Under this request, the society only received 32
                               documents, which did not include all of the society’s
                               correspondence associated with its stamp proposal. As a
                               result, the society filed an appeal requesting additional
                               information on March 16, 1999, and received an additional
                               13 documents.

                               During our review, we identified 27 additional documents
                               that we believe should have been considered responsive to
                               the society that were not included as part of its Freedom of
                               Information request or appeal. However, we were unable to
                               determine why all the documents were not provided to the
                               society. Officials in the Postal Service's Law Department
                               stated that they provided all the documents on file in the
                               Stamp Development Group to the society. Stamp
                               Development Group officials stated that they provided the
                               entire William Holmes McGuffey stamp proposal file,
                               including the additional documents identified during our
                               review, to the Law Department and could not explain why all
                               the documents were not received by the society. In a
                               subsequent conversation, an official in the Stamp
                               Development Group agreed to ensure the society received
                               any additional documentation identified through our review.

 Record Control                While Stamp Development Group officials did not raise it as
                               an issue, we noted that the system used to track stamp
                               subject proposals needed improvement and may have
                               contributed to the mistake of all documents not being sent to
                               the society. The current filing system in Stamp
                               Development may benefit from enhancements to determine
                               whether the files contain all relevant documents. The
                               system does not include a record of all documents received
                               or actions taken in connection with those documents. In
                               addition, there is no record of the documents transferred to
                               the Kansas City Fulfillment Center for storage. By
                               maintaining a database, the Stamp Development Group
                               would have a more accurate record of stamp subject
                               proposals and all relevant correspondence.




                                                  6
Review of the Citizens’ Stamp Advisory Committee’s Criteria                      MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

 Suggestion                    We suggest that the senior vice president of Government
                               Relations and Public Policy and manager of Stamp
                               Services:

                               1. Provide guidance on tailoring the standard response
                                  letters generated by the Stamp Development Group to
                                  require more detailed information regarding the status of
                                  a stamp subject proposal.

 Management's                  Postal Service management agreed with this suggestion
 Comments                      and stated that the customer response process is currently
                               under review, language that addresses the timeframe for
                               issuance of stamp subjects is regularly included, and
                               applicable audit recommendations in this area will be
                               incorporated where appropriate.

 Suggestion                    2.	 Advise the William Holmes McGuffey Historical Society
                                   that its stamp subject proposal is currently categorized
                                   as “under consideration” and is still eligible to be
                                   selected as a commemorative stamp.

 Management's 	                Postal Service management agreed with this suggestion
 Comments 	                    and responded that the William Holmes McGuffey Historical
                               Society will be advised that currently their stamp subject
                               proposal is under consideration as a future stamp issuance.

 Suggestion                    3. Revise the Creating U.S. Postage Stamps pamphlet to
                                  include a more detailed description of the status
                                  categories and the importance of the general themes of
                                  national interest.

 Management's 	                Postal Service management agreed with this suggestion
 Comments 	                    and responded that applicable recommendations in this
                               area will be incorporated into the revised pamphlet,
                               scheduled for reprint this year.

 Suggestion                    4. Determine whether to provide the additional
                                  correspondence identified by the Office of Inspector
                                  General related to the William Holmes McGuffey stamp
                                  subject proposal as requested in the society’s Freedom
                                  of Information Act request.




                                                  7
Review of the Citizens’ Stamp Advisory Committee’s Criteria                       MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal


 Management's 	                Management agreed with this suggestion and stated that
 Comments 	                    the William Holmes McGuffey Society will receive any
                               additional correspondence identified in this review that is
                               responsive to their Freedom of Information Act request.

 Suggestion                    5. Create a database to record and monitor
                                  correspondence related to stamp subject proposals,
                                  including information such as the subject, proposal
                                  status, number of inquiries, dates of correspondence,
                                  and themes for which the proposal may be considered.

 Management's                  Management agreed with this suggestion and responded
 Comments                      that staff within the Public Policy group have been tasked
                               with researching the creation of a stamp database.

 Overall Evaluation of         Management's comments are responsive to our
 Management's                  suggestions and the actions taken or planned should correct
 Comments                      the conditions identified in this report.

                               We appreciate the cooperation and courtesies provided by
                               your staff during this review. If you have any questions,
                               please contact                 , or me at (703) 248-2300.



                               Ronald K. Stith
                               Acting Assistant Inspector General
                                for Business Operations

                               Attachments

                               cc: 	Terrence W. McCaffrey
                                    John R. Gunnels




                                                  8
Review of the Citizens’ Stamp Advisory Committee’s Criteria                        MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

             APPENDIX A. CRITERIA FOR STAMP SUBJECT SELECTION

The Postal Service and the members of the Citizens’ Stamp Advisory Committee have
set certain basic criteria for determining the eligibility of subjects for commemoration on
U.S. stamps and stationery. These criteria were first formulated about the time of the
Postal Reorganization in the early 1970’s, and have been refined and expanded
gradually since then.

The following are the 12 major criteria now guiding subject selection:

1.	   It is a general policy that U.S. postage stamps and stationery primarily will feature
      American or American related subjects.

2.	   No living person shall be honored on a U.S. postage stamp.

3.	   Commemorative stamps or postal stationery honoring individuals will be issued on,
      or in conjunction with, significant anniversaries of their birth, but no postal item will
      be issued sooner than ten years after the individual’s death. The only exception to
      the ten-year rule is the issuance of stamps honoring deceased U.S. Presidents.
      They may be honored with a memorial stamp on the first birth anniversary
      following their death.

4.	   Event of historical significance shall be considered for commemoration only on
      anniversaries in multiples of 50 years.

5.	   Only events and themes of widespread national appeal and significance will be
      considered for commemoration. Events or themes of local or regional significance
      may be recognized by a philatelic or special cancellation, which may be arranged
      through the local postmaster.

6.	   Stamps or stationery items shall not be issued to honor fraternal, political,
      sectarian, or service/charitable organizations that exist primarily to solicit/distribute
      funds. Nor shall stamps be issued to honor commercial enterprise or products.

7.	   Stamps or stationery items shall not be issued to honor cities, towns,
      municipalities, counties, primary or secondary schools, hospitals, libraries, or
      similar institutions. Due to the limitations placed on annual postal programs and
      the vast number of such locales, organizations and institutions in existence, it
      would be difficult to single out one for commemoration.

8.	   Requests for observance of statehood anniversaries will be considered for
      commemorative postage stamps only at intervals of 50 years from the date of the
      state’s first entry into the union. Requests for observance of other state-related or
      regional anniversaries will be considered only as subjects for postal stationery, and
      again only at intervals of 50 years from the date of the event.




                                                  9
Review of the Citizens’ Stamp Advisory Committee’s Criteria                    MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

9.	   Stamps or stationery items shall not be issued to honor religious institutions or
      individuals whose principle achievements are associated with religious
      undertakings or beliefs.

10.	 Stamps or postal stationery items with added values, referred to as “semi-postals,”
     shall not be issued. Due to the vast number of worthy fund-raising organizations in
     existence, it would be difficult to single out specific ones to receive such revenue.
     There also is a strong U.S. tradition of private fund-raising for charities, and the
     administrative costs involved in accounting for sales would tend to negate the
     revenues derived.

11.	 Requests for commemoration of significant anniversaries of universities and other
     institutions of higher education shall be considered only in regard to Historic
     Preservation Series postal cards featuring an appropriate building on the campus.

12.	 No stamp shall be considered for issuance if one treating the same subject has
     been issued in the past 10 years. The only exceptions to this rule will be those
     stamps issued in recognition of traditional themes such as Christmas, U.S. Flags,
     Express Mail, Love, etc.




                                                 10
Review of the Citizens’ Stamp Advisory Committee’s Criteria   MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal

                       APPENDIX B. MANAGEMENT’S COMMENTS




                                                 11
Review of the Citizens’ Stamp Advisory Committee’s Criteria   MK-MA-00-001
 and Process Used in Reviewing the William Holmes McGuffey
 Historical Society’s Stamp Subject Proposal


 Major Contributors to
 This Report




                               .




                                                 12
